      Department of Homeland Security




      The State of Florida’s Management of State 

        Homeland Security Program and Urban 

       Areas Security Initiative Grants Awarded 

        During Fiscal Years 2007 through 2009 





OIG-12-13                                     November 2011

                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                      NOV 2 3 2011

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the State of Florida's management of State Homeland Security
Program and Urban Areas Security Initiative grants. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                       !ku.t~;U
                                      Anne L. Richards
                                      Assistant Inspector General for Audits                    /
Table of Contents/Abbreviations
Executive Summary ........................................................................................................... 1


Background ........................................................................................................................ 2


Results of Audit ................................................................................................................. 2


     The State of Florida’s Management Practices Were Generally Effective, but

     Require Some Improvements ....................................................................................... 2


     Subawards to Local Jurisdictions ................................................................................. 3

     Recommendations ........................................................................................................ 3

     Management Comments and OIG Analysis ................................................................ 3


     Timeliness of Grant Fund Obligations and Expenditures ............................................ 4

     Recommendation ......................................................................................................... 7

     Management Comments and OIG Analysis ................................................................ 7


     Establishing Measureable Goals and Objectives ......................................................... 8

     Recommendation ......................................................................................................... 9

     Management Comments and OIG Analysis ................................................................ 9


     Sustainability of Local Projects ................................................................................. 10

     Recommendations ...................................................................................................... 11

     Management Comments and OIG Analysis .............................................................. 11


     Innovative Practice—Measuring Preparedness ......................................................... 12


Appendices
Appendix A:                Purpose, Scope, and Methodology ..................................................... 13

Appendix B:                Management Comments to the Draft Report ..................................... 16

Appendix C:                Homeland Security Grant Program Background ............................... 21

Appendix D:                Florida’s Federally Designated Urban Areas ..................................... 22

Appendix E:                Florida’s State Homeland Security Program Funding Process .......... 23

Appendix F:                Major Contributors to this Report ...................................................... 25

Appendix G:                Report Distribution ............................................................................ 26


Abbreviations
DHS                   Department of Homeland Security
FEMA                  Federal Emergency Management Agency
FY                    fiscal year
OIG                   Office of Inspector General
SAA                   State Administrative Agency
SHSP                  State Homeland Security Program
UASI                  Urban Areas Security Initiative
USAR                  Urban Search and Rescue
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                     Public Law 110-53, Implementing Recommendations of the 9/11
                     Commission Act of 2007, requires the Department of Homeland
                     Security Office of Inspector General to audit individual states’
                     management of State Homeland Security Program and Urban Areas
                     Security Initiative grants. This report responds to the reporting
                     requirement for the State of Florida.

                     The objectives of the audit were to determine whether the State of
                     Florida distributed and spent State Homeland Security Program and
                     Urban Areas Security Initiative grant funds effectively and efficiently
                     and in compliance with applicable federal laws and regulations. We
                     also assessed the extent to which grant funds enhanced the State of
                     Florida’s ability to prevent, prepare for, protect against, and respond
                     to natural disasters, acts of terrorism, and other manmade disasters.
                     The audit included a review of approximately $208 million in State
                     Homeland Security Program and Urban Areas Security Initiative
                     grants awarded to Florida during fiscal years 2007 through 2009.

                     Generally, the State of Florida administered grant program
                     requirements effectively and efficiently and in compliance with grant
                     guidance and regulations. The State of Florida’s strategic plans
                     linked goals and objectives to national priorities and Department of
                     Homeland Security mission areas. Grant funds were spent on
                     allowable items and activities, and adequate controls existed over the
                     approval of expenditures and reimbursement of funds. We also
                     identified one innovative practice related to preparedness
                     measurement.

                     However, improvements are needed in subawards to local
                     jurisdictions, timeliness of grant fund obligations and expenditures,
                     measureable goals and objectives, and sustainability of local projects.
                     We made six recommendations to the Federal Emergency
                     Management Agency that, if implemented, should strengthen
                     program management, performance, and oversight. Written
                     comments to the draft report are incorporated as appropriate and
                     included in their entirety in appendix B.




           The State of Florida’s Management of State Homeland Security Program and

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 1
Background
                     The Department of Homeland Security (DHS) provides federal
                     funding through the Homeland Security Grant Program to help
                     state and local agencies enhance capabilities to prevent, deter,
                     respond to, and recover from terrorist attacks, major disasters, and
                     other emergencies. See appendix C for additional details regarding
                     the Homeland Security Grant Program.

                     The governor of the State of Florida designated the Florida
                     Division of Emergency Management as the State Administrative
                     Agency (SAA). The SAA is responsible for managing the grant
                     programs in accordance with established federal guidelines and
                     allocating funds to local, regional, and other state government
                     agencies. The SAA subawarded Homeland Security Grant
                     Program funds to five urban areas, seven regions, and various state
                     agencies. Florida’s five urban areas are illustrated in appendix D.

                     The State received approximately $208 million in Homeland
                     Security grant funds through fiscal years (FYs) 2007, 2008, and
                     2009. This included approximately $97 million in State Homeland
                     Security Program (SHSP) funds and approximately $111 million in
                     Urban Areas Security Initiative (UASI) grant funds. Appendix A
                     provides details on the purpose, scope, and methodology for this
                     audit.

Results of Audit
     The State of Florida’s Management Practices Were Generally
     Effective, but Require Some Improvements
            Generally, the State of Florida (State) did an efficient and effective job of
            administering program requirements in accordance with grant guidance
            and regulations. The State developed written procedures and protocols for
            the administration of the grant program, and implemented internal controls
            for the approval of expenditures and reimbursement of funds. The State
            also developed strategies that linked goals and objectives to the four
            mission areas and eight National Priorities established by DHS.

            However, improvements in the following areas are needed to enhance the
            State’s management of the grants:

                     Funds subawarded to local jurisdictions
                     Timeliness of grant fund obligations and expenditures

          The State of Florida’s Management of State Homeland Security Program and
      Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                            Page 2
                Measureable goals and objectives
                Sustainability of local projects

Subawards to Local Jurisdictions
       The State did not adequately calculate and award SHSP funds designated
       for local jurisdictions in the 2009 grant year as required by grant guidance.
       The State combined UASI and SHSP funds and from the total, allocated
       80% to local jurisdictions. Based on its calculations, the State reported
       that $10,759,279 (15%) of SHSP and UASI funds was kept by the State,
       and that $58,706,771 (85%) was obligated to local recipients. However,
       in actuality, the State obligated only $24,410,915 (71.6%) of the
       $34,109,500 SHSP award.

       The Federal Emergency Management Agency’s (FEMA) program
       guidance for the FY 2009 Homeland Security Grant Program states that
       the SAA must obligate at least 80% of the funds awarded under SHSP and
       UASI separately to local units of government within 45 days of receipt of
       the funds. According to the State, it misinterpreted FEMA’s guidance and
       as a result combined the funds to meet the 80% requirement rather than
       ensuring that at least 80% of SHSP funds were awarded to local
       jurisdictions. The difference between what was provided to local
       jurisdictions from SHSP funds and what should have been provided is
       approximately $2.9 million. Local jurisdictions could have used these
       additional funds to complete critical projects that further prepare, prevent,
       deter, and respond to terrorist attacks, chemical/biological incidents, or
       natural disasters.

       Recommendations
                We recommend that the Assistant Administrator, Grant Programs
                Directorate:

                Recommendation #1: Ensure that the State understands the grant
                guidance as it relates to subawarding funds to local jurisdictions.

                Recommendation #2: Direct the State to award the remaining
                $2.9 million of 2009 SHSP funds to local jurisdictions.

       Management Comments and OIG Analysis
                FEMA concurred with recommendation 1 and with the intent of
                recommendation 2. Within 90 days of its response, FEMA will
                contact the Florida Department of Emergency Management to
                ensure the State understands pass through requirements. In

     The State of Florida’s Management of State Homeland Security Program and
 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                       Page 3
                addition, FEMA will review the State’s process for calculating the
                pass-through amount and require the state to comply with program
                requirements.

                The Florida Department of Emergency Management indicated that
                there was no distinction in the FY 2009 Homeland Security Grant
                Program Guidance and Application Kit that the SHSP and UASI
                programs should be separate in the 80/20 split calculation. The
                State indicated 100% of 2009 SHSP funds are already obligated
                via cost reimbursement subgrantee agreements.

                The corrective actions proposed by FEMA meet the intent of the
                recommendations. If properly implemented, the actions identified
                in the responses should address the conditions identified during the
                audit. These recommendations are considered resolved and open,
                pending final implementation of the proposed corrective actions.

Timeliness of Grant Fund Obligations and Expenditures
       Obligation of Grant Funds

       The State did not obligate grant funds promptly. For grant years 2007 and
       2008, the State did not issue award letters to subgrantees. It relied on its
       process to review and approve projects to be funded by SHSP grant funds
       as notification to SHSP subgrantees that funds had been obligated. (See
       appendix E for Florida’s funding process.) The State indicated that since
       2002, a FEMA representative has determined that this process was
       sufficient to meet its obligation requirement.

       FEMA’s program guidance for the Homeland Security Grant Program
       requires that no less than 80% of the total grant funds available to local
       units of government be obligated by the State within 60 days of receipt of
       funds for FY 2007 and within 45 days for FYs 2008 and 2009. In
       addition, FEMA strongly encourages the timely obligation of funds from
       local units of government to other subgrantees. FEMA grant guidance
       states that four requirements must be met to obligate grant funds:

                    There must be some action to establish a firm commitment on
                    the part of the awarding entity.
                    The subaward must be unconditional on the part of the
                    awarding entity.
                    There must be documentary evidence of the commitment.
                    The award terms must be communicated to the official grantee.



     The State of Florida’s Management of State Homeland Security Program and
 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                       Page 4
      These grant requirements were not met in grant years FY 2007 and
      FY 2008. Without obligation notifications, the subgrantees indicated that
      they generally considered the grant contract execution date as the date
      funds were obligated. However, because grant contracts and agreements
      must go through many levels of state and local review in some instances,
      grant contracts were executed more than 400 days after the State’s award
      date.

      For FY 2009, the State began to send letters of intent to obligate funds.
      However, turnover in the State’s legal department delayed award letters.
      We determined that the State obligated funds approximately 44 to 101
      days after the required 45-day limit had passed (see table 1).

      Table 1. Comparison of Florida’s FY 2009 Award Date to Subgrantee’s Obligation
      Dates
                                    Florida’s Award                        Days to
               Subgrantee                             Obligation Date
                                          Date                            Obligate
       Jacksonville UASI                   8/21/2009            11/18/2009          89 days
       Tampa UASI                          8/21/2009            11/18/2009          89 days
       Miami UASI                          8/21/2009            01/14/2010         146 days
       Ft. Lauderdale UASI                 8/21/2009            11/18/2009          89 days
       Department of Education             8/21/2009            11/19/2009          90 days
       Department of Health                8/21/2009            12/03/2009         104 days
       Department of Agriculture           8/21/2009            12/01/2009         102 days
        Department of Law
                                             8/21/2009         11/19/2009           90 days
        Enforcement
      Note: “Obligation date” is based on information provided by selected subgrantees either
      through award letters or notification emails. Some subgrantees did not have information
      related to their grant obligations.

      Expenditure of Grant Funds

      Grant funds were not timely available for expenditure by subgrantees. We
      determined that on average it took 182 days for funds to be available to
      subgrantees. The delay in receipt of funds is attributed to the State’s
      lengthy approval process. Florida state law prohibits the subgrantees from
      expending any grant funds until they receive a fully executed grant
      agreement.

      Once the State receives the grant award notice from FEMA, it begins to
      draft grant agreements for each SHSP project selected for funding and for
      each UASI. The State begins by drafting the scope of work for each
      agreement. Next, the agreements are sent to the State’s legal department


    The State of Florida’s Management of State Homeland Security Program and

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 5
      for review and approval. Once approved, the agreements, along with the
      award letters, are sent to the subgrantees.

      Each subgrantee must follow its respective processes for review and
      signature of the grant agreements. These processes vary depending on the
      city or county. For example, at the Tampa UASI, the grant official sends
      both the award letter and the grant agreement to the City of Tampa’s
      Council (which meets only twice a month) for approval. After receiving
      the City Council’s approval, the grant agreement is sent to the Mayor for
      signature, and then back to the State for signature. Each of these
      individual steps at the local jurisdiction can take one month on average to
      accomplish.

      At the State, the signed agreement undergoes a quality assurance review
      by both the finance and accounting section and the legal department.
      Once the quality review is complete, the agreement is returned to the
      finance and accounting grants section for encumbrance. The agreement is
      then prepared for final execution and signature by the SAA’s Division
      Director. Finally, a fully executed copy of the agreement is mailed to the
      subgrantees.

      The State attributed delays in the preparation of the grant agreements to
      extensive turnover of staff within its legal department during the FY 2009
      grant period. State officials also said that they provide a dollar amount
      that each subgrantee can expect to receive prior to the full execution of the
      grant agreements. The State believes that this notification complies with
      FEMA’s timeframes for obligating grant funds. However, subgrantees
      were instructed per the grant agreements to delay using grant funds until
      they received the fully executed grant agreements from the State. Table 2
      illustrates the time it took for subgrantee agreements to be fully executed
      in FY 2009.

      Table 2. Comparison of Subgrantee FY 2009 Obligation Dates to Date of Fully
      Executed Agreements
                                         Obligation   Date Agreement        Days to
       Subgrantee
                                            Date       Fully Executed       Execute
       Jacksonville UASI                11/18/2009       04/08/2010       141 days
       Tampa UASI                            11/18/2009         04/14/2010         147 days
       Miami UASI                            01/14/2010         11/24/2010         314 days
       Ft. Lauderdale UASI                   11/18/2009         07/29/2010         253 days
       Department of Education               11/19/2009         04/28/2010         160 days
       Department of Health                  12/03/2009         07/27/2010         236 days
       Department of Agriculture             12/01/2009         020/1/2010          62 days
       Department of Law Enforcement         11/19/2009         04/07/2010         139 days


    The State of Florida’s Management of State Homeland Security Program and

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 6

      The delays in obtaining funds to procure goods and services have resulted
      in a large percentage of grant funds remaining unused within the 3-year
      performance period, making it necessary for the SAA to request grant
      extensions from FEMA or risk losing the funds. Table 3 illustrates the
      percentage of grant awards as of September 30, 2010, that had not been
      drawn down by the SAA for the grants awarded during FYs 2007–2009.
      Table 3. Florida Homeland Security Grant Program Drawdowns as of September
      30, 2010
       Grant       Date of         Total           Total          Undrawn        Percentage
       Year        FEMA            Grant        Drawdowns         Balance         Undrawn
                   Award           Award
        2007      8/09/2007      $84,742,600     $57,613,272     $27,129,328            32%
        2008      8/25/2008      $77,483,211     $28,461,684     $49,021,527            63%
        2009      8/21/2009      $72,345,392      $2,138,613     $70,206,779            97%


      The SAA’s lengthy obligation process restricted the subgrantees’ ability to
      effectively plan and caused delays in expending grant funds, required
      grant extensions, and may have caused delays in expending future year
      grant funds.

      Recommendation
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of the Florida Department of
               Emergency Management to—

               Recommendation #3: Review its grant obligating process to
               identify ways to shorten the time needed to meet grant requirements.

      Management Comments and OIG Analysis
               FEMA concurred with the intent of recommendation 3. Within 90
               days of the final report, FEMA will require the Director of the
               Florida Department of Emergency Management to conduct a
               review of the state's grant obligation process to identify
               efficiencies to shorten the time required to obligate grant funding
               to subgrantees.

               The Florida Division of Emergency Management plans to take this
               recommendation under consideration as it works towards the
               enhancement of the grant obligation process given a minimal
               staffing capacity.




    The State of Florida’s Management of State Homeland Security Program and

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 7
                            The FEMA and Florida Department of Emergency Management
                            responses include positive steps for implementing the
                            recommendation. However, until a firm timetable for
                            implementing the recommendation is provided, this
                            recommendation will remain unresolved and open.

           Establishing Measureable Goals and Objectives
                    The Florida Domestic Security Strategic Plan’s goals and objectives do
                    not provide an adequate basis for measuring improvements in the State’s
                    preparedness and response capabilities. The State measures the progress
                    of individual projects funded by the Homeland Security Grant Program
                    through an analysis of the percentage of funds expended. However, the
                    State has not developed a baseline from which it can measure
                    improvements. Also, its strategic goals and objectives do not provide
                    sufficient information for measuring improvements to the State’s overall
                    level of preparedness.

                    For example, the State’s second objective under the Recovery goal is to
                    ensure that sufficient lifeline services are available to safely support on­
                    going recovery activities. To meet this objective, the State lists the
                    following implementation steps: (1) support local health care systems,
                    agencies, and providers to develop continuity of operations plans;
                    (2) work with communities to explore mitigation options for lifeline
                    systems; and (3) coordinate debris removal and cleanup within impacted
                    communities. Although the implementation steps provide additional
                    information to help achieve the objective, they do not provide measurable
                    standards for comparison, are not results-oriented to identify a specific
                    outcome, and do not identify target dates for completion.

                    DHS’s State and Urban Area Homeland Security Strategy, Guidance on
                    Aligning Strategies with the National Preparedness Goal, dated July 22,
                    2005, states that the SAA or Urban Area Working Group should assess the
                    strategy’s objectives to determine whether the measures are meaningful,
                    the measurement methodology is sound, and the measures can be verified
                    with reliable data. In addition, federal regulations for monitoring and
                    reporting program performance require grantees to monitor grant- and
                    subgrant-supported activities to assure that performance goals are being
                    achieved. 1

                    The State and FEMA do not know what measurable progress is being
                    made to improve preparedness and response capability or the amount of


1
    44 C.F.R. §13.40(a).

                 The State of Florida’s Management of State Homeland Security Program and

             Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                    Page 8
      additional funding and time that may be needed to ultimately achieve the
      goals and objectives.

      The State acknowledged the strategic plan’s lack of useful tools for
      measuring performance, but pointed out two mitigating factors:
      (1) FEMA approved the current strategies, including the existing
      performance measures, and (2) the State has been waiting for some time
      for promised FEMA assistance in developing useful performance
      measures. State officials recognized the importance and value of useful
      performance measures to gauge progress and help guide funding
      decisions. Thus, the State plans to hire a consultant to evaluate its process
      for selecting projects and help determine the best method for the State to
      measure its overall preparedness.

      Recommendation
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of the Florida Department of
               Emergency Management to—

               Recommendation #4: Update its strategic plans to include goals
               and objectives that are specific, measurable, achievable, results
               oriented, and time limited.

      Management Comments and OIG Analysis
               FEMA concurred with the intent of recommendation 4. FEMA is
               revising the guidance and the content of the Homeland Security
               strategy, which is anticipated for release in the fall of 2011. The
               Preparedness Grants Division will require the Florida Department
               of Emergency Management to update their Strategy and comply
               with revised Homeland Security strategy guidelines.

               The Florida Department of Emergency Management stated the
               Florida Domestic Security Strategic Plan was just recently updated
               and approved by the Domestic Security Oversight Council, and
               that the plan has been sent to FEMA for approval.

               The FEMA and Florida Department of Emergency Management
               responses include positive steps for implementing the
               recommendation. However, until a firm timetable for
               implementing the recommendation is provided, this
               recommendation will remain unresolved and open.



    The State of Florida’s Management of State Homeland Security Program and

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 9
Sustainability of Local Projects
       The State does not have contingency plans for some SHSP-funded projects
       in the event that federal funding is not available in the future. FEMA
       guidance does not require states to have contingency plans for SHSP- and
       UASI-funded projects and allows states to fund project sustainment costs
       with grant funds. Sustainability is a critical factor that will impact the
       State’s overall preparedness capabilities. The State places little emphasis
       on sustainability as a ranking factor when prioritizing SHSP projects. As
       a result, the long-term sustainment of capabilities and the completion of
       projects funded by multiyear contracts may be in jeopardy if future federal
       funding is not available or is significantly reduced.

       We reviewed 28 funded projects (15 UASI and 13 SHSP). All 15 UASI-
       funded projects included a description of other funding sources available
       or provided plans to obtain funding through other sources. However,
       approximately 54% (7 of 13) of SHSP-funded project templates reviewed
       indicated that if grant funds were not available, funding could not be
       assured and local funds could not be used to sustain the project (see
       table 4).

       Table 4. SHSP Projects without Sustainability
                                             Grant
                                                                 Funding          Recipient
                 Project Name                 Year
       Sustainment of State Agriculture                                        Department of
       Response Teams                             2007       $     200,000     Agriculture
       Sustainment of Equipment for
       Urban Search and Rescue (USAR)             2007       $   1,408,010    Fire and Rescue
       Sustainment of Training                    2007       $   1,828,621    Fire and Rescue
                                                                              Department of
       Florida Interoperable Network              2007       $    2,500,000   Management
       Sustainment of Equipment for
       USAR                                       2008       $ 1,434,687      Fire and Rescue
       Sustainment of Training                    2008       $ 1,956,477      Fire and Rescue
       Sustainment of Equipment for
       USAR                                       2009        $ 1,827,461     Fire and Rescue
       Total                                                 $ 11,155,256

       A closer review of these seven SHSP projects revealed that they funded
       sustainment costs for other ongoing projects. FEMA guidance allows
       states to fund project sustainment costs and generally does not require that
       they identify contingency plans for SHSP- and UASI-funded projects.

       Although the State’s funding process includes reviews of proposed
       projects by both local and state groups to identify those projects that best
       address the disciplines’ needs and capability gaps, the State does not
       require that sustainability be heavily considered when ranking projects for
     The State of Florida’s Management of State Homeland Security Program and

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 10
      funding. For a detailed description of the State’s Domestic Security
      funding process, see appendix E.

      Without direction from the State, there is no assurance that the review
      groups will consider sustainability as a ranking factor when prioritizing
      SHSP projects. The long-term sustainment of capabilities and the
      completion of projects funded by multiyear contracts may be in jeopardy
      if future federal funding is not available or significantly reduced.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of the Florida Department of
               Emergency Management to—

               Recommendation #5: Review long-term and sustainment projects
               to ensure that they include contingency plans should federal
               funding be reduced or eliminated.

               Recommendation #6: Ensure that local funding committees place
               greater emphasis on sustainability when prioritizing projects for
               SHSP funding.

      Management Comments and OIG Analysis
               FEMA concurred with the intent of recommendation 5. FEMA
               will require, within 180 days of receipt of the final report, the
               Director of the Florida Department of Emergency Management to
               develop a future funding plan that would provide for the
               continuance of critical projects without long term dependency on
               federal grant funding.

               FEMA concurred with the intent of recommendation 6. FEMA
               will recommend that the State of Florida work with local
               jurisdictions receiving funding to develop a future funding plan
               that would provide for the continuance of critical projects without
               long-term dependency on federal grant funding. FEMA will
               follow-up with the State within 180 days of the final report and
               request additional information on its future funding plan.

               The Florida Department of Emergency Management indicated that,
               per the 2012 Domestic Security Rules of Engagement, it has
               satisfied this recommendation.



    The State of Florida’s Management of State Homeland Security Program and

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 11
                The FEMA and Florida Department of Emergency Management
                responses include positive steps for implementing the
                recommendation. However, until a firm timetable for
                implementing the recommendation is provided, these
                recommendations will remain unresolved and open.

Innovative Practice—Measuring Preparedness
       The Jacksonville UASI measures improvements in preparedness by
       evaluating their capabilities through gap analyses that are based on
       measured outcomes and an assessment of future needs.

       The Jacksonville UASI conducts an annual Gap Analysis that provides
       up-to-date information on the UASI’s current state of preparedness based
       on funding allocations. The Gap Analysis process measures progress
       through readiness indicators (target capabilities list) and quantifiable data
       (i.e., spending trends) to identify gaps in planning, training, exercise, and
       equipment. Each year, the UASI Urban Area Working Group Strategy
       and Initiatives Committee prioritizes the target capability list utilizing a
       tier system based on risk to the urban area. The prioritization results are
       then implemented immediately and incorporated into the Jacksonville
       UASI project worksheets and project scoring sheets for the next grant
       cycle processes.

       In addition, the Gap Analysis process includes capability-based planning
       sessions, held by the Strategy and Initiatives Committee staff, to measure
       target capabilities and implementation tasks from the Jacksonville UASI
       Strategy. Each goal, objective, and implementation task is measured by
       Metropolitan Statistical Area completion percentages (0%, 25%, 50%,
       75%, and 100%) based on risks to the urban area.

       Through this process, the Jacksonville UASI can identify gaps by
       assessing and cataloging the risks faced by the UASI and the capabilities it
       has or will need to mitigate those risks. The gap between the risk and the
       capabilities will determine the UASI’s homeland security needs going
       forward and should form the basis for funding allocation.




     The State of Florida’s Management of State Homeland Security Program and

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 12
Appendix A
Purpose, Scope, and Methodology

                       The purpose of the audit was to determine whether the State of
                       Florida distributed and spent State Homeland Security Program
                       and Urban Areas Security Initiative grant funds effectively and
                       efficiently and in compliance with laws, regulations, and guidance.
                       In addition, we assessed the extent to which grant funds enhanced
                       the State’s ability to prevent, prepare for, protect against, and
                       respond to natural disasters, acts of terrorism, and other manmade
                       disasters.

                       The entire Homeland Security Grant Program and its five
                       interrelated grant programs fund a range of preparedness activities,
                       including planning, organization, equipment purchase, training,
                       exercises, and management and administration costs. Because of
                       the interrelationship of these grant programs, all were considered
                       when evaluating the planning cycle and the effectiveness of the
                       overall grant program. However, only State Homeland Security
                       Program and Urban Areas Security Initiative funding equipment
                       and programs supported by the grant funding were reviewed for
                       compliance. Appendix C provides additional information on these
                       grant programs.

                                Table 5. Homeland Security Grant Program Awards
                                             FYs 2007 through 2009
                          Program             FY 2007         FY 2008        FY 2009              Total
                    State Homeland
                                             $25,460,000    $37,090,000     $34,109,500         $96,659,500
                    Security
                    Urban Areas
                                             $38,670,000    $37,509,500     $35,356,550    $111,536,050
                    Security Initiative

                           Subtotal          $64,130,000     $74,599,500    $69,466,050    $208,195,550
                    Law Enforcement
                                             $18,180,000        N/A             N/A             $18,180,000
                    Terrorism Prevention
                    Citizen Corps               $625,584        $635,164       $630,795          $1,891,543
                    Metropolitan Medical
                                              $1,807,016      $2,248,547     $2,248,547          $6,304,110
                    Response System
                            Total            $84,742,600     $77,483,211    $72,345,392    $234,571,203
                                          Source: Federal Emergency Management Agency.

                       The audit methodology included interviews with FEMA
                       representatives as well as work at the SAA, all five urban areas
                       that received grants, and various subgrantee locations. To achieve
                       our audit objective, we analyzed data, reviewed documentation,
                       and interviewed the key State and local officials directly involved

            The State of Florida’s Management of State Homeland Security Program and

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 13
Appendix A
Purpose, Scope, and Methodology

                       in the management and administration of the State’s Homeland
                       Security Grant Programs. We conducted site visits and held
                       discussions with appropriate officials from selected state agencies,
                       urban areas, and local jurisdictions in order to determine whether
                       program grant funds were expended in accordance with grant
                       requirements and State-established priorities.

                       In addition to the SAA, we contacted the following 18 subgrantee
                       organizations:

                       Urban Areas Security Initiative Recipients
                             Ft. Lauderdale
                             Jacksonville
                             Miami
                             Orlando
                             Tampa

                       State Agencies
                              Department of Agriculture
                              Department of Education
                              Department of Financial Services–State Fire Marshal
                              Department of Health
                              Department of Law Enforcement
                              Department of Management Services

                       Counties
                             Hillsborough County Sheriff’s Office
                             Miami-Dade County Emergency Management
                             Orange County Sheriff’s Office

                       Local Jurisdictions and First Responders
                              City of Delray Beach
                              City of Ft. Myers
                              City of Miami Urban Search and Rescue
                              Tampa Police Department

                       We interviewed responsible officials, reviewed documentation
                       supporting SAA and subgrantee management of the awarded grant
                       funds (including expenditures for equipment, training, and
                       exercises), and physically inspected judgmentally selected
                       equipment procured with the grant funds.

                       We reviewed a judgmental sample of the grants expenditures
                       representing approximately 27% of the dollar value expended for

            The State of Florida’s Management of State Homeland Security Program and
        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                              Page 14
Appendix A
Purpose, Scope, and Methodology

                       the FY 2007–2009 grants to determine whether the expenditures
                       were supported and allowable under the grants. We judgmentally
                       chose specific equipment items to observe at the local sites where
                       they reside.

                       We conducted this performance audit between October 2010 and
                       March 2011 pursuant to the Inspector General Act of 1978, as
                       amended, and according to generally accepted government
                       auditing standards. Those standards require that we plan and
                       perform the audit to obtain sufficient, appropriate evidence to
                       provide a reasonable basis for our findings and conclusions based
                       upon our audit objectives. We believe that the evidence obtained
                       provides a reasonable basis for our findings and conclusions based
                       upon our audit objectives.




            The State of Florida’s Management of State Homeland Security Program and
        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                              Page 15
Appendix B
Management Comments to the Draft Report



                                                                                                  l .~. I"'p   mc"'     uf Ilum.·..od "ccn,i'1
                                                                                                  <01' C S' 1. SI<
                                                                                                  \"'<l';f\!:'n><I. IK ~(~1~




                                                    SEP 1 3 1011



         ;1"1EMOI{ANDUM FOH:                 Am)c L. RiC"h;lnb
                                             A~~i~I:1I11InsP<'cturGcn<:r:11       for Audil'
                                             OITiel.' of liblX'(."[or GCII<.'ml

                                             David 1.   K~l\lf[l'~    ../'
         fRO.'1:
                                             Dir<:clOf         'll'
                                                                  ~
                                             Olrln' of Policy :lnd PI"O£ram i\naly... i~

         SUBJEcr:                            lh· ... j)()n-e 10 IJraft OKi I{cP0rl: TiI,- .'11111'>(lr  Flor;,l" '.j' ,l/wwg<'"",m III
                                             Slul,' 11"'11,,10/1" .'i",·"ril." l'rogmJIIlllld U,-hall An'<I.' .'11'( IIril\"
                                             Imliilli ...,., (jml!/~ A •...,,.,/,,I! "HJ"ili.~ ri'nd Y('UJ".,' 2(j()7 1111"",'.~h 2()(XJ



         Tile Fcdcr;lI Emrrgcncy M;lI\agcml.'nl t\geney (FE1>'IA) ;Ipprcdales the DCIX'rllllcnl I)f llollicland
         S~",·urily·... (DHS) arlit'e of In'p<:elOr (icnerar~ (DIG) n:\"icw of Ihl.' Simi' of Flo,-id,,'s /IIwwgelll"",
         IIf Slil/e Ilol!leli/mISt"'lIrily l'rug,.,11IJ (SllS}') 111111 Urhw! 111"<'(/.1 .'i"{'Uril" 1";lilll;n'.,' (VASI) (;rlll!l~
         ""/lrd,," dllri",~ Filn" Yn'I".' 2(j()7 II/rollgh 2()(XJ. Bdow. you will lind '.lUI' 1"\."IXln'e 10 each of your
         ,ix n:C"<JIl1l1ICndalion, aimcd ;.1   pro~r;lIn ImpWI"CmCll1


         ()I(; ItCCUUllIIl'udaliulllIl: w~ re,'OIlHllcnd lh;lllhc As,j",ul1 Admini'lralor. (jranl Pr,,~r;l!n,
         lJircdowlt' (GI'D) cn,ul"i' Ihal lht:: Slaw IHHkl"'l,mds ll1e gf<lI11 guid"l1t'c;l' iln:lalc' 10 .,uh;Lwanling
         fund, 10 local juri'diction....

         FEM,\. Hc~pon...., 10 RCfUrnnll'ndaliun #1: f'F\1A concul"' wilh lhi, recommendation,
         Wilhin 90 day' or deli\~ry or lhi, I\"ron-.e. FEMA Willt'unl'll;l Ihc Florida Depallment 01
         Enwrgcncy 1I1an;lt crncnl 10 CI"IIf"C lhe S(;l1c unJcI,t,lIld, pas,-thl'ough rc(!uiremcn". FEMA
         rcquc..." thai this rc<:ommcndalloll be rcsoln'd and UpCIl. pcnding Ihe oul\'omc of dLS<:u'.'l\)n, with
         Florida

         OIG l~c("Ol11m('nd:l\ion112: We recommend thaI the A... ,i~lanl Adnlllli'ln.llor. Gr.1lI1 Pn..l.l!J';Illl'"
         Din'clorHlc dircctlhc SI;lte 10 a""ilFd lhe relll;linlllg $1.9 million or 100') SHSP fllll,h ('local
         J\ln-.dil:lIOlb




           The State of Florida’s Management of State Homeland Security Program and

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                             Page 16
Appendix B
Management Comments to the Draft Report


                                                                ,
         FE.' 1,\ I~('sponsc to RCl'omllwndalion #2: I'E1I.·1A concurs "'ith the intent ufthis n:conlmclIllation,
         Within 90 days of ddi\'cry of this Tl'Spon;;c, FEMA will review Florida" s proce" lor cakulating the
         pass-through :111)00111 and require Florida to comply ",j1h program requirements, FE\·I,\ T""qll!;,l,
         Ihal this rcroll1l1\cnd:,tion b" r~'Solwd and open. pending the n:vicw and implcmmtation of any
         cOITective action.

         OIG RI'COllll11Cndation #3: We rc.::ommcnd that the Assis[:llll Administr.llor. Grant rrogrmus
         Directorate, require the Dircrtor of the Florida Department of Emergency Managcmcnl 10 review its
         grail! ohligating prQl;COSS to identify ways to shorten the lime Ill'C<:k'tl to IlIl'C! gram Tt:Xluircmcnts_

         !'EMA Response to Rccollllllcnd:llioll #3: FE\1A concurs with Ill<: intent of this recommend3tion.
         Within 90 days of receipt of the tinal report Vi,l gr,llltl'C notification letter. the Director of the F1orid~
         Department of Erncrgcl1<':Y Management is required TO conducT a review of the state's grant
         obligation process to ideruify ctlieicneies to shor1en the time required to obligate gram funding to
         sub-graruees. FEMA requests thai this rc<.:omm<.:nd:l1ion be resoll'ed and open. pemling the review
         ,llld implementation of any idcruilk~l process adjustments.

         OIG Recommendation #4: We rO-"1:ommend thal the Assistant Administr:ttor. Grant Programs
         Din;'Ctorat<.:. rO-"tIuire the Din..'Ctor of the Florida D'-1Jal1lll<.:m of Emergency Managl'llent update its
         strategic plans to indude goals and obJO-'Ctives thm arc specific. mcasur;lble, :lehicvable, results
         orientl"(t, and time limited.

         rEMA ResllollsC to RI'commcllll:ltion #4: FEMA concurs with the intcl1tllfthis rt'Connnendation.
         The Nationall'reparl'dnt'Ss Directorate (NI'D), the FEMA entity rcsponsihlc for the homeland
         SI..'Curity str-ltCgy (HSS) and its guidance, is revising the guidance and the coruent of HSS, which is
         anticipatt'd for relcase in t~lll of 2011 in :njvmtcc of the FY 2012 Homeland SecuriTy Grant I'rogram
         (HSGI') application cycle. The I'reparc<\ness Grants Division (I'GD) within FEMA's GI'D will
         rt'quire the Director of the Florida Division of Emergcncy Managemenlto revise Florida's HSS to
         comply with the revised guidelines developt'<.l by NPD, FEMA believes this satisfies the intent of
         the fl'l:Ommendatioll and requC!its that This reconllncndation be re'ol"l'<.l :md open, pending the
         re\'ision of Florida's Homeland St'Curity Strntegy.

         OIG RI'COlllmClldatiOll #5: We reCOllll11end Ihat the Assislant Administrator. Grant Programs
         t)ir<..'l:lorate, require Ii'll' Director of the Florida Dellar1ment of Emergency \'farmgemenl to review
         long.tenn and sustainment projects to ensure that They include contingency plmls ~ho\lld federal
         funding be rt'duced or eliminated.

         FEl\IA Response to Recomnwndation #5: FEMA concurs with the intent of this recommendation.
         Florida is not in violation of regulations or grant rt-qUtfements by not having a sustainment plan.
         Thc issue of long-tenn sustainment of initiatives IS a cross-cutting issue That <;hould be discu-~sed al
         the highcsl1cvels of DBS.

         FEMA suggC!its the followiltg OOrTeClive action:
         Within 180 days of ret::cipt of the final report vi;! grantet:: notification letter, the Director of the
         Florida Department of Emergency Management develop a future funding plan that would provide
         for the CQlllllluancc of critical projects without long term dependency on federal grant funding.




           The State of Florida’s Management of State Homeland Security Program and

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                         Page 17
Appendix B
Management Comments to the Draft Report


                                                                   J


         f'EMA    bclic\'c~ thi~ ~a(bfjcs   Ihe' intent of the fl','ommcndalion ,md n.'que"ls Ih"l thi,
         rccol1Ullcl1(lalion be I"<:.,oll'<:d "nd open pc,I(1ing 'lI1pkl11<:I1I"I;011 of Ihe ,wtcd l"Urre("!;,·c "dioll'_

         OIG RCCOIllIllClld;'lioll #6: We rcCO'lHlll'ncllh"t Ihe .'\"j,I:1I1I Adl1lini~lr"lor. Granl Prognlilis
         Directorate. require the Director of the f'loridn IXp,lIlllWll1 of Emcrgcncy 1'.'lanagcllll'nt <:Ihun: Ih'l!
         local fuuding committees place greater cmph",;, on 'IlQainabililY 11'1";11 prioririling project, for
         SHSP funding.

         FE,\IA Wl'SIJIlIlM' 10 RN"Ollllllendalion #6: 1010),-1'\ ,'oncur, wilb Ihe intent of this rccUmrnl'II([;,lioll.
         II is a """'d and pro"ct;,"c [HI"iIlCS.' pwclicc tu dc\'dul} llpliun, fur tlie potenti,,1 rcdll<:liull and or
         change in prillr;!y for grant funded :lcl;vil;es: Ihercrore, il ;s rcconulll'n(ied that Ihe $1;,le of Florid:,
         work \\';Ih local juri~liel;on" rcl"eiving fuuding 10 develop;' flllllrc funding plan llial wuuld pruvi<k
         for lllc conl;lIuam:c of n;ticli projecl' wilhOlU long-Ierlll dCj:I<:mknq' on federal gr;lIlt funding.
         FE~"" i, ~en"ilive 10 Ihe challenge~ \Ili~ may present in lhe curren! cwnomic dirn,u<:. However.
         FEMA will follow-up wilh Ihe SW!<: within IIlO lbys ofdelivcry ufthe final repOri via gramee
         nOlilicatiun !c'uer and rcqllC~1 addilional information on it~ ftJlure funding pl:'I!.

         We lhank yOll for Ihe "pportunily 10 review an,ll'{)l1Hllenl on Ihc rcl'<:ll1ll1lcndalions you have
         provi(kd FEMA rq;arding this Draft Rcpon. Should you I};lYe any questions COl1ccrning this
         n::'ponse. please contact Brad Sherka. Chief AudiT Li~ison. 202-646-130R.




           The State of Florida’s Management of State Homeland Security Program and

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                           Page 18
Appendix B
Management Comments to the Draft Report




                                                  STATE OF FLORIDA
        DIVISION OF EMERGENCY MANAGEMENT
        RICK   seon                                                                                      BRVAN KOON

        -~                                                                                                       "'"""
                                                                                                   Augusl1, 2011

         Anne l Richards
         US Department or Homeland Secur~y
         Alln. Office 01 Inspector General
         245 Murray Drive, sw, Bldg 410
         Washington, DC 20539

         Dear Ms, Richards:

         The Florida Division of Emergency Management is in receipl of the Draft Report. The Siale of Florida's
         Management of Stele Homeland Security Program and Ur~n Area Securiry Inilialive GrBnts Awarded
         During Fiscal year 2007 through 2009 _ For Ofru;ial Use Onlydaled June 20, 2011. Bolow you will tind
         the requested comments to your recommendations.

         Rtcommendaflon #1: Ensure Ihat rhe Stale undarslands the grant guidanco as il mlales to subawarding
         funds /0 local jurisdlcrkms.

        Page 46 of the Fiscal Year 2009 Homeland Security Granl Program Guidance and Application Kit states:
        The SM must obligate 01 least 80 percenl oflhe funds awarded under SHSP and VASllo local unirs of
        government within 45 days of receipr of Ihe funds. Please IlOte there was no dislincliOfllhal those two
        programs should be separale in tho 80/20 split calculation. Furthermore, UASI and SHSP both /all under
        lhe HSGP umbrella and Page 46 also Slales: The State's p;lss-through period musr be met wirhin 45
        days of fhe award dale for the HSGP.

        Recommendation"1: Direct thq Slare 10 award the remaining $2.9 million of 2009 SHSP funds to loca/
        jun'sdicfions,

        100% of the 2009 $HSP tunds are already obligated via cost reimbur5OffiQf1t sub grant agreements.

        Recommendationl!J: Review its granf obligating process /0 identify ways to shoften tho time needed to
        mfJet grant requirements,

        The Florida Division of Emergency Management will take this recommendation undllf considllfation as we
        work towards If'>o enhancement of the grant obligalion process given a minimal staffing capacily.

        Recommllndllflon 14: Updare its strategic plens to im:lude go<lls and objoctiV$slhat are specific,
        measurable, achievab/(l, rosulrs oriented, and time limired.

        Florida's Domeslic Security Strategic Plan was just recently updatod and approved by the Domestic
        8ecurijy Oversight Council. The plan has boon sent to FEMA fO( approval.

        Recommendation #5: Review Iong-Ierm and sustainment projecrs to ensure that they include
        contingency plans should fodomi funding be rnduced or eliminated.

        Per the 2012 Domeslic Secur~y Rules of Engagement, we have satiSfied this rocommendation.




       flORIOA        RECOVERl OffiCE • DIVISION HEIIDQ~IIHTEHS                  STille LOGISTICS RESPONSE ClNTER
                   36 S'.I; •• 1)'1.'       nB Shum.rd 0 •• B.ol ••• rd                  np2 0;'0<'.'" R."
                          3n4$·$~O'
               L••• M.,y. Fl                Toll.h ••••• , fl 32309·2'00               Orllnd •• Fl 31109·$631
                                       ToI'      eoo,' 'a,us., , .. :
                                                                  500·488,jOI8
                                              lIlI.. EIQlidIQI...    P'Ow




           The State of Florida’s Management of State Homeland Security Program and

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                           Page 19
Appendix B
Management Comments to the Draft Report




        Ms, Anne L. Richards
        August 1. 2011
        Page Two


         Recommendation 1/6: Ensur9 that local funding committoos pllJCO greatoromphasis on sustain"bilily
         wh9n prioritizing proj9cls for $HSP funding.

         PElf the 2012 Domestic   Secur~y   Rules of Engagom(lnt,   we   have satisfied this recommendation.

         If you have any Questions or reQuire addilional informalion, ploaso contact Tina Quick. Communily
         Program Administrator at 850-413-9974.



                                                           R(lspcclfully.


                                                           ~;-=..~---~-
                                                           Division of Emergency Management




           The State of Florida’s Management of State Homeland Security Program and

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                          Page 20
Appendix C
Homeland Security Grant Program Background

                      The Homeland Security Grant Program provides federal funding to
                      help state and local agencies enhance their capabilities to prevent,
                      deter, respond to, and recover from terrorist attacks, major
                      disasters, and other emergencies. The Homeland Security Grant
                      Program encompasses several interrelated federal grant programs
                      that together fund a range of preparedness activities, including
                      planning, organization, equipment purchase, training, and
                      exercises, as well as management and administration costs.
                      Programs include the following:

                               State Homeland Security Program provides financial
                               assistance directly to each of the states and territories to
                               prevent, respond to, and recover from acts of terrorism and
                               other catastrophic events. The program supports the
                               implementation of the State Homeland Security Strategy to
                               address the identified planning, equipment, training, and
                               exercise needs.

                               Urban Areas Security Initiative provides financial
                               assistance to address the unique planning, equipment,
                               training, and exercise needs of high-risk urban areas, and to
                               assist in building an enhanced and sustainable capacity to
                               prevent, respond to, and recover from threats or acts of
                               terrorism and other disasters. Allowable costs for the urban
                               areas are consistent with the State Homeland Security
                               Program. Funding is expended based on the Urban Area
                               Homeland Security Strategies.

                      In addition, the Homeland Security Grant Program includes other
                      interrelated grant programs with similar purposes. Depending on
                      the fiscal year, these include the following:

                               Metropolitan Medical Response System
                               Citizen Corps Program
                               Law Enforcement Terrorism Prevention Program (through
                               FY 2007)




           The State of Florida’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                             Page 21
Appendix D
Florida’s Federally Designated Urban Areas




Source: Florida Department of Emergency Management.




            The State of Florida’s Management of State Homeland Security Program and

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 22
Appendix E
Florida’s State Homeland Security Program Funding Process

                       Florida developed a funding strategy and process that is fully
                       integrated with its Domestic Security Strategy. The funding
                       process is designed around the ten emergency preparedness
                       disciplines of agriculture/environment, campus security, fire
                       rescue, community health surge, emergency management,
                       interoperable communications, law enforcement prevention, law
                       enforcement response, medical surge, and public information. The
                       funding process coordinates participation by several regional and
                       statewide committees to recognize the unique needs of
                       municipalities and counties statewide.

                       There are ten funding committees, one for each discipline with
                       representation from each region, that develop project templates for
                       grant fund consideration. Additionally, each Regional Domestic
                       Security Task Force designates up to two members to represent the
                       region; each Urban Area may designate one member; and state
                       agencies may designate up to two members to represent them on
                       the funding committees. The committees meet to discuss regional
                       preparedness needs identified through capability assessments, and
                       to ensure that the proposed project templates are based on
                       preparedness needs in accordance with the Florida Domestic
                       Security Strategic Plan. Once approved by the funding
                       committees, the project templates are submitted to the SAA, which
                       in turn provides them to a Peer Review panel and Voting Delegates
                       for prioritization and voting.

                       The Peer Review panel is composed of one member from each of
                       the ten disciplines for statewide representation and one
                       spokesperson for the State’s five UASIs. The SAA provides each
                       peer review panel member with the proposed project templates, the
                       regional gap analysis, the evaluation criteria, and a scoring sheet to
                       document the panel’s scores. For each proposed project template,
                       the Peer Review panel considers elements such as previous
                       funding, whether the template includes implementation steps and
                       sustainability, and other project details. The Peer Review panel
                       discusses its findings and develops scores and comments. The
                       Peer Review panel’s score determines 30% of each project’s final
                       score.

                       The Voting Delegates are 62 members, including members of the
                       State Working Group Executive Board Unified Coordinating
                       Group, the Regional Domestic Security Task Forces, and
                       representatives of select disciplines. Although the Voting
                       Delegates are not provided set criteria, the State indicated that they
                       examine each project template for alignment with the Florida

            The State of Florida’s Management of State Homeland Security Program and
        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                              Page 23
Appendix E
Florida’s State Homeland Security Program Funding Process

                       Domestic Security Strategic Plan, critical sustainment, viability,
                       prior funding status, and project detail. Voting Delegates rank and
                       prioritize projects and assign a score that accounts for 70% of the
                       final score used for prioritizing all project templates. The
                       prioritized list is submitted for approval to the State Working
                       Group Executive Board and the Domestic Security Oversight
                       Council, which consist of major department heads and advisory
                       groups to Florida State Agencies.

                       The two groups review and approve the prioritized project list
                       before they submit it to the Governor’s office for approval. The
                       requested budget, once signed by the Governor, is added to the
                       appropriations bill, and the Florida Legislature approves the list.
                       The application for federal grant funding is submitted to FEMA.
                       When the award is received, if the amount is less than the
                       requested amount, a “post-award” meeting is held to determine
                       final allocation of funding for each project.




            The State of Florida’s Management of State Homeland Security Program and
        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                              Page 24
Appendix F
Major Contributors to this Report

                       Jewel Butler, Director
                       Yesi Starinsky, Audit Manager
                       Michael Staver, Auditor-in-Charge
                       Armando Lastra, Program Analyst
                       Jeanette Hyatt, Program Analyst
                       Jose Benitez-Rexach, Auditor
                       Sue Vernier, Auditor
                       Virginia Feliciano, Referencer




            The State of Florida’s Management of State Homeland Security Program and
        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                              Page 25
Appendix G
Report Distribution

                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretariat
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs

                       Federal Emergency Management Agency

                       Administrator
                       Assistant Administrator, Grant Programs Directorate
                       Federal Emergency Management Agency Audit Liaison
                       Grant Programs Directorate Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




            The State of Florida’s Management of State Homeland Security Program and

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 26

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, e-mail your request to our
OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov, or visit our OIG
websites at www.dhs.gov/oig or www.oig.dhs.gov.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
